OIG Investigative Reports - Press Release, Monday, December 13, 2010 - Sacramento Woman Sentenced to Two Years in Prison for Federal Student Loan Fraud Ring
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney Benjamin B. Wagner
Eastern District of California
FOR IMMEDIATE RELEASE
Monday, December 13, 2010
www.usdoj.gov/usao/cae
Docket #: 2:09-CR-00422-WBS
CONTACT: Lauren Horwood
PHONE: (916) 554-2706
usacae.edcapress@usdoj.gov
Sacramento Woman Sentenced to Two Years in Prison for Federal Student Loan Fraud Ring
SACRAMENTO, Calif. — United States Attorney Benjamin B. Wagner announced today that, Jewel Minor, 24, of Sacramento, was sentenced today by United States District Judge William B. Shubb to 24 months in prison, to be followed by three years of supervised release. Minor was also ordered to pay $118,843.72 in restitution.
This case is the product of an extensive investigation by the United States Department of Education, Office of the Inspector General and the Los Rios Community College District Police Department. Assistant United States Attorney Jean M. Hobler is prosecuting the case.
Also charged in the case are Nakesha Sharrieff, aka Takiyah Raheem and Aysia Hanifah Kahan, 23; Hoa Tasha Kelly, aka Tasha Kelly, 24; and Teaona Williams, 24; all of Sacramento. Jarmal Duplessis, 22, pleaded guilty to one count of conspiracy to commit student loan fraud and was sentenced on November 8, 2010, to nine months in prison, three years of supervised release, and ordered to pay $23,294.70 in restitution. Thomas Keys, 23, pleaded guilty on October 4, 2010, to one count of conspiracy to commit student loan fraud, and is expected to be sentenced on January 10, 2011.
Minor admitted in her plea agreement that in June 2008, Teaona Williams recruited her to be a “straw student” in order to obtain student loan funds without going to school. Williams introduced Minor to Sharrieff, who signed Minor up for student loan funds. Minor met Sharrieff at a bank, and Sharrieff gave Minor checks in an envelope that had Minor’s “cut” of the proceeds written on it. Minor cashed the checks, then split the money with Sharrieff. Minor recruited additional students for Sharrieff in exchange for a portion of the money obtained. Minor also let Sharrieff use Minor’s address to receive checks for other straw students, in exchange for additional payment. After Minor became involved in the conspiracy, the scheme netted approximately $118,000 in federally provided or insured student loan funds.
“Let today’s sentence serve as a warning: individuals that choose to participate in these types of fraud rings will be caught and prosecuted to the fullest extent of the law,” said Natalie Forbort, Special Agent in Charge of the U.S. Department of Education Office Inspector General Western Regional Office. “I’m proud of the work of my office and the other law enforcement agencies working with us on this case for holding Ms. Minor accountable for her unlawful actions.”
As to the charged defendants, the charges are only allegations and the defendants are presumed innocent until and unless proven guilty beyond a reasonable doubt.
# # # #
Top
Printable view
Last Modified: 12/21/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov